HHS/OIG-Audit--"Public Health Service Contract Pre-Award Audits Issued During Fiscal Year 1993, (A-02-93-02517)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Public Health Service Contract Pre-Award Audits Issued During Fiscal Year 1992," (A-02-93-02517)
December 22, 1993
Complete
Text of Report is available in PDF format (1.2 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with a summary of the results of 89 contract pre-award audit reports completed for the Public
Health Service (PHS) operating divisions (OPDIV) by the Office of Audit Services (OAS) in Fiscal Year (FY) 1992. The purpose
of this report is to provide the Office of the Assistant Secretary for Health (OASH) with an overview of the pre-award
audit reports issued by OAS during FY 1992, and actions taken by the responsible PHS agencies in awarding funds to contractors.
In FY 1992, there were over 12,000 PHS contract actions for contracts totaling over $2.1 billion. Based on requests made
by PHS agencies, OAS issued 89 preaward audit reports in FY 1992, covering proposed costs for awards that totaled approximately
$238 million. Our examination of the 89 reports indicated that a majority of the proposals we reviewed contained overstated
projected costs. Specifically, we recommended adjustments totaling about $7.9 million and set asides (costs on which we
were unable to render an opinion) totaling another $25.1 million.